No.

Supreme Court of the United States

SHIRLEY ANNETTE HIRSHAUER,
Pro Se Petitioner,

v.

BROOKE SCHUMM III, AQ HOLDINGS, LLC,
THOMAS ROSS
Respondents

PETITION FOR WRIT OF CERTIORARI

QUESTIONS PRESENTED
1.

Was Shirley Hirshauer's, and her sons,
Constitutional Right to Due Process
violated?
Is a judge immune from being sued
when he acts in the absence of all
jurisdiction?
Is the Maryland Fraudulent
Conveyance Rule 15-209
Unconstitutional?
Was it unlawful for Judge Sweeney to
dismiss Hirshauer's counterclaim when
she had merit and the defendant's to
the counterclaim offered to defense?
Does the Plain Error Rule, Harmful Error
Rule and Reversible Error Rule pertain
to this case?.
Were Judge Ross and Judge Sweeney
biased triers?

(i)

PARTIES TO THE PROCEEDING

The parties to the proceeding in the
Court of Appeals of Maryland were
Petitioner/Appellant Shirley Hirshauer, James
Gerben, Jr, Randy Gerben, and Jason
Gerben, attorney Kevin Joyce, and
Respondents/Appellee's were Queen Anne's
County Circuit Court Judge Thomas Ross, AQHoldings, LLC, attorney Brooke Schumm Ill,
attorney Cathleen Meredith, attorney David
Wildberger, Wanda Clemons, personally and
as personal representative of Geraldine Gray,
Elizabeth O'Shea, Patricia Plews, Alice Hall,
Christine Lauman, Terry Brumwell, Michael
Gray and Wayne Gray, AQ Holdings, LLC,
Attorney General of Maryland.
(ii)

TABLE OF CONTENTS

Questions Presented
Parties to the Proceeding
ii
Table of Authorities
iii
Opinions Below
1
Introduction
3
Statement of the Case
6
Statement of Jurisdiction
2
Constitutional Provisions Involved
.2
Reason for Granting
55
Conclusion
56
Appendix
Attached as a separate
document

TABLE OF AUTHORITIES

STATUTES

Federal Bankruptcy Rule 362
Federal Bankruptcy Rule 524
Maryland Rule 1-323
Maryland Rule 1-351
Maryland Rule 2-31 1 (b)
Maryland Rule 2-535(b)
Maryland Rule 2-641
Maryland Rule 2-642(d)
Maryland Rule 3-505

37, 41, 42, 54
5
19
19
21
22 39
16, 33, 52, 53
23
45

49
4, 8, 9, 56
29
41

Maryland Rule 15-205
Maryland Rule 15-209
Maryland Rule 14-107
Maryland Rule 2072-1

CASE LAW
47

(1Freeman on Judgments, 120c.)
Ex parte Rowland
(1992) 104 U.S. 604, 26 L.Ed. 861.

48

Forrester v White,
28
484 U.S. at 227-229, 108 S. Ct at 544-545;
Griffin v Shapiro,
17
158 Md. App. 337, 857 A.2d 519 (2004)
Hagans v Lavine
415 U.S. 533

31, 51

Joyce v. U.S., 474 2.d 215

32, 52

Kalb v Feuerstein
48
(1940) 308 U.S. 433, 60 X Ct 343, 84 Led
370;
Kroop & Kurland, Pa v Lambros,
17, 23
118 Md. App 651, 703 A.2d 1287 (1998)

(iv)

Kroop & Kurland, P.S., et al v. Michael J...17
Lambros,.19
No. 281, Sept. Term 1997, January 06,
1998.
Mireles v Waco,
112 S. Ct. 286, at 288 (1991)

28

Old Wayne Mut. L. Assoc. v. McDonough,
204 U.S. 8, 27 S.Ct. 236 (1907)
.7, 13, 32, 52
Overby v. Overby,
31, 51
457 S.W.2d 851 (Tenn 1970).
Volume 20: Corpus Juris Sec s/s 1785
People v Greene,
46
71 Cal. 100 [16 Pac. 197, 5 Am St. Rep.
448].
Rosemond v. Lambert, 469 F.2d 416

32 52

Sabiego v Maverick,
124 US 261,31 L. Ed 430, 8 S Ct 461,

47

Stump v Sparkman,
435 U.S. at 380, 98 S. Ct at 1106;

28

Thompson v Giordano, 16 Md. App. 264, 295
45
A.2d 881 (1972)

(v)

United States, et al v. Darwin Construction
Company,
US Court of Appeals, Fourth Circuit 873
F.2d 750.
17, 27, 50, 51
Unites States v. Darwin Constr. Co., 679 F.
Supp 531 (D. Md. 1988) ..17, 27, 50, 51
Valley v. Northern Fire & Marine, Inc. Co., 54
U.S. 348, 41 S.Ct. 116 (1920)
27 51
Windsor v. McVeigh,
27, 50
93 U.S. 274 (1876);

(vi)

OPINIONS BELOW
Queen Anne's County Circuit Court - Case
17-C-06-11769; Recorded Judgments 17-C06-11800; 17-C-06-11808 and 17-C-06-11809;
The Court of Special Appeals of Maryland,
Case Nos 2684 Sept Term 2011 and 2687 Sept
Term 2011 - Which are void as there was no
final judgment for jurisdiction, from Case No
17-C-06-11769, and when there opinion
came out 2 of the parties were under a
bankruptcy stay; The COA of Maryland, Case
No COA-PET-0501-2018, Federal Bankruptcy
Court for the Middle District of Florida Case
Nos 3:07-bk-02587-JAF, Adv Pro 3:08-ap00036-JAF, Adv Pro 3:08-ap-00178-JAF; and
the U.S. District Court for the Middle District of
Florida on appeal, Case No 3:10-cv-198-TJC.
1

STATEMENT OF JURISDICTION
The Court of Appeals entered
judgment on June 21, 2019, Apx 83. The
court denied to make a ruling on Hirshauer's
Constitutional Rights. This Court has
jurisdiction under 28 U.S.C. subsection 1254(1).

1Constitutional Provisions Involved

U.S Constitution 4th Amendment
U.S Constitution 5th Amendment
U.S Constitution 7th Amendment
U.S Constitution 8th Amendment
U.S Constitution 14th Amendment

2

43
43
43
43
43

PETITION FOR WRIT OF CERTIORARI
Shirley Hirshauer petitions for a writ of
certiorari to review the judgments of the
Queen Anne's County Circuit Court, the Kent
County Circuit Court, the Federal Bankruptcy
Court and the U.S. District Court for the
Middle District of Florida, all relating to the
same issue of Hirshauer's Constitutional Right
to Due Process being violated.

INTRODUCTION
This case is of great importance due to
the fact that it presents violations of the U.S.
Constitutional Rights of the Queen Anne's
County Circuit Court defendants, Shirley
Hirshauer, James Gerben, Jr., Randy Gerben
and Jason Gerben (defendants), there are
conflicting orders/judgments between the
3

courts of Maryland and the Federal
Bankruptcy Court and the U.S. District Court
for the Middle District of Florida, on appeal
and the Maryland Commercial Law Section
15-209 is either an unconstitutional law or was
unconstitutionally applied by the Queen
Anne's County Circuit Court Judge Ross.
Justice Gorsuch recently said the
Constitution and the law are predictable,
even Justice Gorsuch could not have
predicted what Judge Ross, the court clerk
and attorney Brooke Schumm III, et al did to
Hirshauer and her sons James Gerben, Jr.,
Randy Gerben and Jason Gerben
(Gerben's/sons) in August 2006.
The ex parte actions of August 2006 in
the Queen Anne's County Circuit Court do
4

not meet constitutional muster, and are
therefore void.
There is no final judgment on the fraud
issue in the Queen Anne's County Circuit
Court and can never be due to Hirshauer's
bankruptcy discharge it would be a violation
of Bankruptcy Discharge Rule 524 to continue
a case after discharge, plus the issue of fraud
was adjudicated, to a final judgment, in
Hirshauer's involuntary bankruptcy, Adv Pro
No 08-00178 and appealed by the Clemons
Party, Appeal No. 3:10-CV-198-TJC.
Which means there are no valid writs of
execution in Shirley Hirshauer's name, and
there can never be a valid levy on the
Gerben's property or a valid sheriff's sale of
Gerben property for Hirshauer's debt, a debt
5

that was discharged in Hirshauer's involuntary
bankruptcy. (Apx 60-61)
Inscribed in the supreme court building
are the words "Equal Justice Under the Law",
this is all Hirshauer and the Gerben's are
seeking from this Honorable Court.
Shirley Hirshauer prays this Honorable
Court decides to hear this case and right the
wrongs done against her, her sons and the
U.S. Constitution.

STATEMENT OF THE CASE

On November 5, 2004 Shirley Hirshauer
transferred a property, located at 1211 Busic
Church Road, Marydel, Maryland (farm), to
her 3 sons, James Gerben, Jr, Randy Gerben
and Jason Gerben (Gerben's/sons).
6

On or about July 17, 2006 Hirshauer
only, not her sons, lost a lawsuit, in Anne
Arundel County, Maryland, to Wanda
Clemons, both personally and as personal
representative of the estate of Geraldine
Gray, Elizabeth O'Shea, Alice Hall, Terry
Brumwell, Patricia Plews, Christine Laumann,
Michael Gray and Wayne Gray (Clemons
Party).
On or about July 19, 2006 the Clemons
Party's attorney's filed a lawsuit in Queen
Anne's County Circuit Court Case No 17-C06-11769, accusing Hirshauer of fraudulently
transferring the farm to her sons.
The named defendants in this lawsuit
were Shirley Hirshauer, James Gerben, Jr.,
Randy Gerben and Jason Gerben.
7

The Clemons Parties attorney's elected
not to serve any defendant with the
summons that were issued in Case No 17-C06-11769 (fraud case).
Then in August 2006 Mr. Schumm,
Clemons Parties attorney, filed in the 3
recorded judgment cases asking the court to
find Hirshauer guilty of fraudulently
transferring the farm to her sons and let them
levy and sell, without due process.
Clemons Party claimed that Maryland
Rule 15-209(a) allowed them to ignore the
constitution and take
the Gerben's farm for Hirshauer's debt.
Maryland Commercial Law.
Section 15-209
(a) If a conveyance or

8

obligation is fraudulent as
to a creditor whose claim
has matured, the creditor,
as against any person
except a purchaser for fair
consideration without
knowledge of the fraud at
the time of the purchase or
one who has derived title
immediately or
immediately from such a
purchaser, may:
Have the conveyance
set aside or obligation
annulled to the extent
necessary to satisfy
the claim; or
Levy on or garnish the
property conveyed as if
the conveyance were not
made.

Since 15-209(a) states if it would make
you believe that there must be due process
to a final judgment on the fraud in favor of
the plaintiff, if not it is an unconstitutional law
and should be ignored.
9

Attorney Schumm, et al and Judge
Ross decided to use this law to say, ex parte,
Hirshauer is a fraud, insolvent, etc so Clemons
may take the Gerben's farm.
The Gerben's and Hirshauer were
shocked that a court could do this in secret
with an attorney.
For a transfer to be a fraud there must
be several points of guilt such as the
transferor was insolvent, and many others.
Judge Ross would have no way of
knowing if Hirshauer was insolvent without a
discovery, and a trial.
A trial on this exact issue was had in the
Federal Bankruptcy Court, Adv 08-00178, with

10

the exact same parties and the Honorable
Judge Funk order there was no fraudulent
transfer of the farm the Gerben's are the
owners and their deed cannot be avoided.
(Apx 43-57)
The Clemons Party appealed this
decision, with Mr. Schumm as their attorney,
who has been working on contingency for
years at this point, the Honorable Judge
Corrigan upheld the Honorable Judge Funk's
order of no fraud and the Gerben's are the
owners of the farm.
To which Mr. Schumm et al decided
they didn't like that final judgment so they
would all just ignore it.
Hirshauer and the Gerben's attorney,
Mr. Darrow, filed a motion to release real
11

property on September 13, 2006 asking the
Queen Anne's County Circuit Court to squash
the writs of execution and
properly/constitutionally/legally try the fraud
case.
As the Clemons Party and their
attorney's were well aware Hirshauer had
moved to Florida in June 2005, and she no
longer owned any property in Maryland and
had no minimum contacts with the state of
Maryland, therefore the Queen Anne's
County Circuit Court could not acquire
jurisdiction over Hirshauer without her
consent, which she would not have given.
The US District Court of Baltimore, Maryland
would have been the proper court to file the

12

fraudulent conveyance complaint under
diversity jurisdiction since Hirshauer and her
son James Gerben, and 3 of the plaintiff's,
Elizabeth O'Shea, Patricia Plews and Wayne
Gray all lived in Florida and attorney Schumm
claimed the farm was valued at over
$150,000.00 or in the alternative Anne Arundel
County Circuit Court would have been the
proper court since the alleged fraudulent
transfer occurred there.
In fact, the Kent County Circuit Court
had no jurisdiction since attorney Schumm
frauded service on Hirshauer, 3 times, and
then forced her to court in Maryland to
defend the court had no jurisdiction over her
where Mr. Schumm, rather than defend his

13

bad service, handed Hirshauer the summons
in court.
The problem with that is by that time
the summons had expired.
Kent County Judge Sweeney said in
Court, after over a year in the partition or sell
case how do I know I have jurisdiction since
the property is in the name of James Gerben,
Jr and he is not here.
Mr. Schumm told Judge Sweeney not
to worry about it he has jurisdiction and the
case proceeded.
The law says jurisdiction must be proven
on the record before the court can proceed.
Hirshauer hired a Anne Arundel County
attorney to create the new deed to the
Gerben's, she gave the new deeds to her
14

sons in Anne Arundel County and the Anne
Arundel County attorney mailed the
Gerben's deed to the Queen Anne's County
Circuit Court for filing, which is not required by
law.
First, the Clemons Parties attorneys
crafted a motion to the Queen Anne's
County Circuit Court, falsely titled "Request
for Writ of Execution on Real Property, (Apx
1-9, Apx 11-20 and Apx 26-34) when in reality
these 3 motions were requesting the Queen
Anne's County Circuit Court to find Hirshauer
guilty of fraudulently transferring the farm to
her sons, in recorded judgment cases where
there is no judicial jurisdiction. Recorded

15

judgment cases are a clerk of the court
function, per Maryland Rule 2-641.
Maryland Rule 2-641. Writ of
execution - Issuance and
content.
(a) Generally. Upon the written
request of a judgment creditor,
the clerk of a court where the
judgment was entered or is
recorded shall issue a writ of
execution directing the sheriff to
levy upon property of the
judgment debtor to satisfy a
money judgment. The writ shall
contain a notice advising the
debtor that federal and state
exemptions may be available
and that there is a right to move
for release of the property from,
the levy. The request shall be
accompanied by instructions to
the sheriff that shall specify (1)
the judgment debtor's last know
address, (2) the judgment and
the amount owed under the
judgment, (3) the property to be
levied upon and its location, and
(4) whether the sheriff is to leave
the levied property where found,
or to exclude others from access
to it or use of it, or to remove it
16

from the premises. The judgment
creditor may file additional
instructions as necessary and
appropriate and deliver a copy
to the sheriff. More than one writ
may be issued on a judgment,
but only one satisfaction of a
judgment may be had.
This motion was based on deception
since it was ex parte, the evidence attached
was from 2006 when the transfer in question
occurred in 2004.
"Writ of execution was improperly
issued and not warranted by the facts."
Unites States v. Darwin Constr. Co. 679 F.
Supp. 531 (D. Md. 1988) Cited in Kroop &
Kurland, Pa v Lambros, 118 Md. App 651, 703
A.2d 1287 (1998); Griffin v Shapiro, 158 Md.
App. 337, 857 A.2d 519 (2004).

17

Hirshauer would like to adopt all the
case law from her motion to declare writs of
execution are void, the Judge Sweeney, of
Kent County Circuit Court, ignored. (Apx 70
thru Apx 79)
3 of the Clemons Party recorded their
Anne Arundel County Circuit Court
judgments in Queen Anne's County Circuit
Court, where these ex parte motions were
filed Case Nos are Elizabeth O'Shea, Case No
17-C-06-11800, Alice Hall, Case No 17-C-0611808 and Terry Brumwell, Case No 17-C-0611809, (writ cases).
The complaint in the fraud case still
had not been served on any defendant.
These ex parte motions, with no

18

certificate of service, yet the clerk of the
Queen Anne's County Circuit Court
accepted it, violating Maryland Rules 1-351
and 1-323.
Maryland Rule 1-323 Proof of
Service
The clerk shall not accept for
filing any pleading or other
paper requiring service, other
than an original pleading, unless
it is accompanied by an
admission or waiver of service or
a signed certificate showing the
date and manner of making
service.

Maryland Rule 1-351
No court shall sign any order or
grant any relief in an action
upon an ex parte application,
unless:
(a) an ex parte application is
expressly provided for or
necessarily implied by these
rules or other law, or

19

(b) the moving party has
certified in writing that all
parties who will be affected
have been given notice of the
time and place of presentation
of the application to the court or
that specified efforts
commensurate with the
circumstances have been made
to give notice.
No notice was given to Hirshauer or the
Gerben's, this
was all done in secrecy with Mr. Schumm
and Judge Ross.
The clerk of the Queen Anne's County
Circuit Court had rejected Hirshauer's filings, 3
times, for having no certificate of service, 1
was merely updating her address.
The Queen Anne's County Circuit Court
Judge, Ross, accepted the ex parte motion
to find Hirshauer guilty of fraud, and in fact,

20

within 3 days, Judge Ross put out an order
stating Hirshauer did fraudulently transfer the
farm to her sons, her sons deed is void, the
farm is now back in Hirshauer's name and
ordered the clerk to issue writs of execution in
the 3 recorded judgment cases. (Apx 21-24,
35-38)
Per Maryland Rule 2-311(b) states a
party has 15 days after being served with a
motion to respond.
Maryland Rule 2-311. Motions.
(b)Response. Except as
otherwise provided in this
section, a party against whom a
motion is directed shall file any
response within 15 days after
being served with the motion, or
within the time allowed for a
party's original pursuant to Rule
2-321(a), whichever is later.
Unless the court order otherwise,
no response need be filed to a
21

motion filed pursuant to Rule 1204, 2-532, 2-533 or 2-534. If a
party fails to file a response
required by this section the
court may proceed to rule on
the motion.
The clerk did not mail a copy of this
order to Hirshauer or her sons, the Gerben's,
violating Maryland Rule 2-535(b).
The clerk of the Queen Anne's County
Circuit Court issued the 3 writs of execution in
August 2006 in the name of Shirley Hirshauer
to be levied on the Gerben's farm.
Attorney Brooke Schumm III delivered
the writs of execution to the Queen Anne's
County Sheriff and in August 2006 the sheriff
placed these ex parte, ordered without
jurisdiction, void writs of execution on the

22

Gerben's farm, but neglected to mail
anything to Hirshauer or the Gerben's per
Maryland Rule 2-642(d). "The writ was
required to be served on the judgment
debtor, who was entitled to respond." Kroop
& Kurland, P.S., et al v. Michael J. Lambros,
No. 281, Sept. Term 1997, January 06, 1998.
All of the above had occurred in
secret, ex parte, with the Queen Anne's
County Circuit Court lacking all jurisdiction,
with the Gerben's and Hirshauer having no
knowledge, at a time when Hirshauer and
James Gerben, Jr were, and still are, Florida
residents.
Due to lack of service, notice,
knowledge on the part of Hirshauer and the
Gerben's, lack of all jurisdiction by the Queen
23

Anne's County Circuit Court, the clerk not
following the law and the attorney's
fraudulently labeled ex parte motion to
Judge Ross all of the above actions are void.
On September 7, 2006 Judge Ross sent
an ex parte letter to attorney Michael Cuches
asking if what he did was correct. (Apx 92101)
Mr. Cuches basically told Judge Ross
he has to get jurisdiction and have a trial.
Mr. Cuches also stated that the law is
vague seemed unconstitutional (Apx 92)
No one will acknowledge these actions
are void so I am praying this Honorable Court
will inform everyone that Hirshauer was found
innocent of fraudulently transferring the farm
to her sons, to a final judgment.
24

The Honorable Judge Corrigan, of the
US District Court for the Middle District of
Florida's order no fraud and the Gerben's
deed cannot be avoided stands, even
though all the Maryland Courts have been
determined to ignore the Honorable Judge
Corrigan.
Judge Corrigan's order came out of an
appeal that was filed by the Clemons Parties
attorney and the trustee in Hirshauer's
involuntary bankruptcy, that the Clemons
Party placed Hirshauer into, in Florida.
All of the above people have
perverted the course of justice which has
caused great financial and emotional distress
on Hirshauer and the Gerben's.

25

As this Honorable Court can see by the
above there never were any valid writs of
execution on the Gerben's farm, and
therefore the claimed sheriff's sales of the
Gerben's farm with void writs of execution in
the name of Shirley Hirshauer are void.
The sheriff's ad claims they are selling
Gerben's property with Hirshauer's writs of
execution. This makes no common sense
much less legal sense.
A writ of execution is only valid against
property of the debtor at the time the writs of
execution are levied.
"A sentence of a court, pronounced
against a party without hearing him or giving
him an opportunity to be heard, is not a
judicial determination of his rights and is not
26

entitled to respect in any other tribunal".
Windsor v. McVeigh, 93 U.S. 274 (1876); "the
court granted Darwin's motion to vacate the
IRS's writ of execution because the writ was
issued before there was a judgment
regarding the violation of the court's final
contempt order." United States, et al v.
Darwin Construction Company, US Court of
Appeals, Fourth Circuit 873 F.2d 750. "The law
is well-settled that a void order of judgment is
void even before reversal", Valley v. Northern
Fire & Marine, Inc. Co., 254 U.S. 348, 41 S.Ct.
116 (1920)
Hirshauer's counter-claim should not
have been dismissed by Judge Sweeney, in
the Kent County Circuit Court.
Judge Ross lost his immunity when he
27

made the decision to make unlawful orders
in the absence of all jurisdiction, that should
have been merely an administrative act, and
attorney Brooke Schumm et al produced no
defense or evidence that his actions in
August 2006 were lawful and AQ Holdings,
LLC asking to sell a property he bought at an
invalid sheriff's sale is not legal. AQ Holdings,
LLC does not own any portion of the farm
and should not be requesting to sell it. "A
Judge is not immune for tortious acts
committed in a purely Administrative, nonjudicial capacity." Forrester v White, 484 U.S.
at 227-229, 108 S. Ct at 544-545; Stump v
Sparkman, 435 U.S. at 380, 98 S. Ct at 1106;
Mireles v Waco, 112 S. Ct. 286, at 288 (1991)

28

Even if AQ Holdings, LLC did own a
portion of the farm, and Hirshauer and the
Gerben's believe AQ Holdings, LLC does not,
it would be unlawful for Judge Sweeney to
order a sale if would harm the other owner
and it would harm Hirshauer as her father
and brothers ashes are buried on the farm,
and she recently purchased at an invalid
sheriff sale to keep it in the family prior to
getting the fraudulent sheriffs sale voided, or
if the property can be divided. This is just land
it can be divided without harm or injury.
Maryland Rule 14-107(a)
14-107(a) A circuit court ay
decree a partition of any
property, either legal or
equitable, on the bill or petition
of any joint tenant, tenant in
common, parcener, or
concurrent owner, whether
29

claiming by descent or
purchase. If it appears that the
property cannot be divided
without loss or injury to the parties
interested, the court may decree
its sale and divide the money
resulting from the sale among
the parties according to their
respective rights. The right to a
partition or sale includes the right
to a partition or sale of any
separate lot or tract of property,
and the bill or petition need not
pray for a partition of all the lots
or tracts.
If AQ Holdings, LLC believes he owns

any part of the farm he could sell his claimed
interest instead of going to court to force
Hirshauer to sell her share that was just
purchased at the sheriff's auction in an
attempt to not have any gap in using the
farm and visiting my families graves that are
on it until the courts could unwind all the bad
acts by the lower courts and attorneys.
30

AQ Holdings, LLC was at the auction
where Hirshauer bought the farm, therefore
he had the opportunity to out bid Hirshauer,
but he chose not to and then shortly there
after his attorney, still Brooke Schumm Ill the
same attorney as the Clemons Party's, filed a
suit to force me to sell.
On September 28, 2006 Judge Ross
issued an Memorandum and Order
Regarding Stay of Execution. (Apx 87-91)
This document states "No showing of
service of process..." (Apx 87) "The law
requires proof of jurisdiction to appear on the
record..." Hagans v Lavine 415 U.S. 533; "A
judgment obtained without jurisdiction over
the defendant is void." Overby v. Overby,
457 S.W.2d 851 (Tenn 1970). Volume 20:
31

Corpus Juris Sec s/s 1785. "A court cannot
confer jurisdiction where none existed and
cannot make a void proceeding valid. It is
clear and well established law that a void
order can be challenged in any court," Old
Wayne Mut. L. Assoc. v. McDonough, 204 U.S.
8, 27 S.Ct. 236 (1907) "There is no discretion to
ignore lack of jurisdiction." Joyce v. U.S., 474
2.d 215 "The burden shifts to the court to
prove jurisdiction" Rosemond v. Lambert, 469
F.2d 416.
In this September 28, 2006 order, (Apx
87), Judge Ross states, "Randy W. Gerben,
James A. Gerben, Jr. and Jason W. Gerben,
the fee simple owners of the subject
property..."
I think everyone can agree that if
32

Judge Ross is admitting on September 28,
2006 that the Gerben's own the farm then the
sheriff could not have created a levy on the
farm in August 2006 for Hirshauer's debt, with
writs of execution in Shirley Hirshauer's name.
Maryland Rule 2-641, Judge Ross refers
to in (Apx 89, page 2, footnote 3), states:
Maryland Rule 2-641. Writ of
execution - Issuance and
content.
(a) Generally. Upon the written
request of a judgment creditor,
the clerk of a court where the
judgment was entered or is
recorded shall issue a writ of
execution directing the sheriff to
levy upon property of the
judgment debtor to satisfy a
money judgment. The writ shall
contain a notice advising the
debtor that federal and state
exemptions may be available
and that there is a right to move
for release of the property from
the levy. The request shall be
accompanied by instructions to
33

the sheriff that shall specify (1)
the judgment debtor's last
know address, (2) the judgment
and the amount owed under the
judgment, (3) the property to be
levied upon and its location, and
(4) whether the sheriff is to leave
the levied property where found,
or to exclude others from access
to it or use of it, or to remove it
from the premises. The judgment
creditor may file additional
instructions as necessary and
appropriate and deliver a copy
to the sheriff. More than one writ
may be issued on a judgment,
but only one satisfaction of a
judgment may be had.
Per this Memorandum and order
plaintiff's had until September 25, 2006 to
respond to Hirshauer and Gerben's request to
quash the writs of execution, but per Judge
Ross "no response was forth coming". (Apx
90)
(Apx 90) states "it would appear that
34

the writs of execution, real property, and
orders issued therewith should be rescinded,
released and vacated, without prejudice,
until such time as Civil #06-11769 is
adjudicated. Furthermore, Civil #06-11800,
Civil #06-11808 and Civil 06-11809 should be
consolidated with Civil 06-11769. Until such
time as the matter can be heard and proper
assurances regarding transfer of the property
can be made, the Court will stay
enforcement of the subject writs of execution
and orders.
Which means nothing can occur in any
of the 4 above cases due to Hirshauer's
bankruptcy discharge.
Although, we must keep in mind that
Judge Ross still has no jurisdiction.
35

Hirshauer, Randy Gerben and Jason
Gerben were served in December 2006,
according to Brooke Schumm and James
Gerben, Jr. was served on March 13, 2007, in
Florida in jail, 3 days before the March 16,
2007 trial in Queen Anne's County Circuit
Court of Maryland.
Judge Ross said at trial he did not care
James Gerben, Jr was just served because
we were there about Hirshauer.
Judge Ross would also never have
jurisdiction over the fraud issue since the
alleged fraud occurred in Anne Arundel
County.
Anne Arundel County is where
Hirshauer hired an attorney to draw up a new
deed on the farm, Anne Arundel County is
36

where she handed the new deed to her 3
sons, then the Anne Arundel County attorney
mailed the deed to Queen Anne's County
Court.
So, Judge Ross knew what he should
do but chose not to.
Civil Case #06-11769 was closed
without a valid judgment due to Hirshauer's
involuntary bankruptcy stay voiding Ross' July
27, 2007 judgment, and due to Hirshauer's
discharge the fraud case can never be reopened to get a judgment.
Any actions taken after June 19, 2007,
the date Shirley Hirshauer was placed into an
involuntary bankruptcy, by the Clemons
Parties attorney's, are void for violation of the
Federal Bankruptcy Stay 362 and the Federal
37

Bankruptcy Discharge 727 laws. (Apx 60)
Hirshauer counter-claim should not
have been dismissed by Judge Sweeney, in
the Kent County Circuit Court.
Judge Ross lost his immunity when he
made the decision to make unlawful order in
the absence of all jurisdiction, and attorney
Brooke Schumm et al produced no defense
or evidence that his actions in August 2006
were lawful and AQ Holdings, LLC asking to
sell a property he bought at an invalid
sheriff's sale is not legal. AQ Holdings, LLC
does not own any portion of the farm.
These actions by the attorney, clerk
and judge were unconstitutional, illegal and
a Plain Error per the Rule 52 and Reversible

38

Error, per Rule 52 and violate Maryland Rule
2-535.
Hirshauer is requesting this Honorable
Court order all the actions taken in Queen
Anne's County Circuit Court against Hirshauer
and her sons are void, and all the actions
and orders that followed in the Queen
Anne's County Circuit Court and the Queen
Anne's County Sheriff are void as well as they
are based on void orders.
The writs of execution are void, by law,
and therefore it would be impossible for
Judge Ross to stay them as they do not exist.
On December 20, 2006 Judge Ross
ordered a trial to be held on March 16, 2007
even though Judge Ross still lacked
jurisdiction since not all defendants were
39

served and the fraud issue is not in his
jurisdiction.
James Gerben Jr was served on March
13, 2007, 3 days prior to the trial, in jail, in
Florida.
When Mr. Darrow objected to having a
trial as improper since James Gerben, Jr. was
just served, Judge Ross said he didn't care
because the trial was all about Shirley
Hirshauer.
So the trial went on.
Judge Ross did not issue an order in the
fraud case until July 27, 2007, the order stated
Shirley Hirshauer was guilty of fraudulently
transferring the farm to her sons, the Gerben's
deed was void and now the sheriff may levy.
(Apx 101-102)
40

The sheriff never levied.
Prior to Judge Ross's order of July 27,
2007 Mr. Schumm placed Shirley Hirshauer in
an involuntary bankruptcy, in the Middle
District of Florida, Case No. 3:07-bk-02587-JAF,
on June 19, 2007.
This bankruptcy filing immediately
triggered the automatic bankruptcy stay,
Rule 362.
Even though Hirshauer's attorney, Mr.
Darrow, informed the Queen Anne's County
Circuit Court, 3 times, of the involuntary
bankruptcy, because Mr. Schumm did not
per Maryland Rule 2072-1, Judge Ross
continued to make orders for Mr. Schumm's
filings.
Mr. Schumm claims to be a bankruptcy
41

attorney and yet he continued to violate the
Federal Bankruptcy Stay Rule 362.
The Federal Bankruptcy Court Judge,
the Honorable Judge Funk, disagreed stating
on account of the fraud charge Hirshauer
was a necessary party to the Maryland
actions and ordered Judge Ross violated the
Federal Bankruptcy Stay Rule 362 and
therefore Judge Ross' July 27, 2007 order was
void. (Apx 43-57)
After the unlawful acts to issue ex parte
writs of execution, while the Queen Anne's
County Circuit Court of Maryland lacked all
jurisdiction, no one has defended the fact
that these writs of execution are void.
Every time Hirshauer requested a judge
to order the writs of execution were issued
42

illegally and were not valid the request was
ignored.
Attorney Brooke Schumm Ill and all the
judges would only go back far enough in the
case to see the sheriff levied in August 2006,
but refused to look at the actions between
the judge and the attorney's prior to the levy
that got the writs of execution in the first
place, and no judge has answer whether the
writs of execution the sheriff used were valid
or not.
This case is of great importance to the
Constitution and the laws, especially since
Judge Ross is the only circuit court judge in
Queen Anne's County.
Hirshauer has a right to an unbiased
trier therefore she requested Judge Ross
43

recuse himself, several times, he refused until
he believed he had the unlawful taking of
the Gerben's farm set in stone, then he
recused himself.
Hirshauer believes that since Judge
Ross ordered she was a fraud, prior to having
jurisdiction, with no due process Judge Ross'
future orders would be unfairly ordered
against her.
Hirshauer has no reason to believe she
would receive fair due process with Judge
Ross due to the fact Judge Ross already
ordered she was guilty, without jurisdiction,
notice, knowledge or any due process.
"Where defendant does not believe he can
have a fair and impartial trial, his case shall
be removed upon proper suggestion to
44

another District Court judge sitting in or
assigned to same district nut not to a court of
general jurisdiction." Thompson v Giordano,
16 Md. App. 264, 295 A.2d 881 (1972)
Maryland Rule 3-505.
Disqualification of judge.
(a) Request for recusal. A party
who believes that a fair and
impartial trial cannot be had
before the judge to whom the
action has been assigned may
request the assigned judge to
disqualify himself or herself.
The cases were sent to the Kent County
Circuit Court where the only circuit court
judge in Kent County, Judge Bowman, held
one hearing and then recused himself
without being asked.
Which was a disappointment to
Hirshauer because Judge Bowman was
45

allowing Hirshauer's counterclaim and a jury
trial as she had requested.
This guilty order/judgment is void, by
the law and the Constitution, as it was done
without jurisdiction, ex parte, while Hirshauer
was a Florida resident and without Hirshauer
having any knowledge or due process in
recorded judgment cases where no
complaint lies, no summons, no service and
no jurisdiction. "A judgment which is void
upon its face, and which requires only an
inspection of the judgment roll to
demonstrate its wants of vitality is a dead
limb upon the judicial tree, which should be
lopped off, if the power to do so exists."
People v Greene, 71 Cal. 100 [16 Pac. 197, 5
Am St. Rep. 448]. "If a court grants relief,
46

which under the circumstances it hasn't any
authority to grant, its judgment is to that
extent void." (1Freeman on Judgments,
120c.) An illegal order is forever void. "A
judgment of a court without hearing the
party or giving him an opportunity to be
heard is not a judicial determination of his
rights. Sabiego v Maverick, 124 US 261, 31 L.
Ed 430, 8 S Ct 461, and is not entitled to
respect in any other tribunal."
The Court of Special Appeals,(Apx 105149) and the Court of Appeals ignored
Hirshauer's claim of Constitutional violations
as well.
Hirshauer raised the issue of the writs of
execution being issued illegally but the courts
ignored her.
47

This is why Hirshauer prays this
Honorable Court will inform everyone
Hirshauer is not a fraud and the Gerben's
own the farm, undue the unlawful acts of the
courts of Maryland, the attorney's, the clerk
of the court and the sheriff.
"A void judgment does not create any
binding obligation. Kalb v Feuerstein (1940)
308 U.S. 433, 60 X Ct 343, 84 L ed 370; Ex parte
Rowland (1992) 104 U.S. 604, 26 L.Ed. 861.
The Queen Anne's County Circuit Court
cases were all 4 closed, without a judgment,
for lack of prosecution.
Hirshauer was awarded a discharge of
all her pre-bankruptcy debts, which would
include all the judgments of the Clemons
Party.
48

After Hirshauer's discharge attorney
Brooke Schumm went right back to Judge
Ross, in closed cases, and stated we all
agree Hirshauer is a fraud, asked Judge Ross
to award him Fraudulent Conveyance Rule
15-205 and let him sell the Gerben's property
because the trustee did not raise that issue in
the Florida Bankruptcy Court trial, but Mr.
Schumm omit's the fact that he was an
attorney in the case defending the Clemons
Party.
Judge Ross and attorney Schumm et al
violated the rule of res judicata, federal
bankruptcy discharge, in contempt of the
Honorable Judge Corrigan's final judgment
on the fraud issue, issue preclusion/collateral
estoppel.
49

The Constitutional Rights of Shirley
Hirshauer that were ignored/tramped upon,
by Maryland attorney's, the Queen Anne's
County Circuit Court Clerk, the Queen Anne's
County Circuit Court Judge and the Queen
Anne's County sheriff, are 4th, 5th, 7th, 8th and
14th.
"A sentence of a court, pronounced
against a party without hearing him or giving
him an opportunity to be heard, is not a
judicial determination of his rights and is not
entitled to respect in any other tribunal".
Windsor v. McVeigh, 93 U.S. 274 (1876); "the
court granted Darwin's motion to vacate the
IRS's writ of execution because the writ was
issued before there was a judgment

50

regarding the violation of the court's final
contempt order." United States, et al v.
Darwin Construction Company, US Court of
Appeals, Fourth Circuit 873 F.2d 750. "The law
is well-settled that a void order of judgment is
void even before reversal", Valley v. Northern
Fire & Marine, Inc. Co., 254

"No showing

of service of process..." "The law requires
proof of jurisdiction to appear on the
record..." Hagans v Lavine 415 U.S. 533; "A
judgment obtained without jurisdiction over
the defendant is void." Overby v. Overby,
457 S.W.2d 851 (Tenn 1970). Volume 20:
Corpus Juris Sec s/s 1785. "A court cannot
confer jurisdiction where none existed and
cannot make a void proceeding valid. It is
clear and well established law that a void
51

order can be challenged in any court," Old
Wayne Mut. L. Assoc. v. McDonough, 204 U.S.
8, 27 S.Ct. 236 (1907) "There is no discretion to
ignore lack of jurisdiction." Joyce v. U.S., 474
2.d 215 "The burden shifts to the court to
prove jurisdiction" Rosemond v. Lambert, 469
F.2d 416.
Which means you cannot stay writs of
execution that are void.
I think everyone can agree that if
Judge Ross is admitting on September 28,
2006 that the Gerben's own the farm then the
sheriff could not have created a levy on the
farm in August 2006 for Hirshauer's debt, with
writs of execution in Shirley Hirshauer's name.
Maryland Rule 2-641, Judge Ross refers
to:
52

Maryland Rule 2-641. Writ of
execution - Issuance and
content.
(a) Generally. Upon the written
request of a judgment creditor,
the clerk of a court where the
judgment was entered or is
recorded shall issue a writ of
execution directing the sheriff to
levy upon property of the
judgment debtor to satisfy a
money judgment. The writ shall
contain a notice advising
the debtor that federal and state
exemptions may be available
and that there is a right to move
for release of the property from
the levy. The request shall be
accompanied by instructions to
the sheriff that shall specify (1)
the judgment debtor's last know
address, (2) the judgment and
the amount owed under the
judgment, (3) the property to be
levied upon and its location, and
(4) whether the sheriff is to leave
the levied property where found,
or to exclude others from access
to it or use of it, or to remove it
from the premises. The judgment
creditor may file additional
instructions as necessary and
appropriate and deliver a copy
53

to the sheriff. More than one writ
may be issued on a judgment,
but only one satisfaction of a
judgment may be had.
So, Judge Ross knew what he should
do but chose not to.
Civil Case #06-11769 was closed
without a valid judgment due to Hirshauer's
involuntary bankruptcy stay, and due to
Hirshauer's discharge Civil Case #06-11769
can never be re-opened to get a judgment.
Any actions taken after June 19, 2007,
the date Shirley Hirshauer was placed into an
involuntary bankruptcy, by the Clemons
Parties attorney's, are void for violation of the
Federal Bankruptcy Stay 362 and the Federal
Bankruptcy Discharge 727 laws.
Hirshauer is requesting this Honorable
54

Court order all the actions taken in Queen
Anne's County Circuit Court against Hirshauer
and her sons are void, and all the actions
and orders that followed in the Queen
Anne's County Circuit Court and the Queen
Anne's County Sheriff are void as well as they
are based This case is of great importance
to the Constitution and the laws, especially
since Judge Ross is the only circuit court
judge in Queen Anne's County and is willing
to make orders ex parte that have a huge
affect on innocent peoples lives.

REASON FOR GRANTING
Constitutional violations and unconstitutional
law

55

CONCLUSION
Shirley Hirshauer prays this Honorable
Court will take this case and rectify the
unconstitutional and unlawful acts
perpetrated against her in the Queen Anne's
County Circuit Court and to clarify the
unconstitutional Maryland Rule 15-209.

Shirley Hirshauer
650 W. Pope Road
Unit 266
St. Augustine, FL 2080
904-625-3309
hirshauer@gmail.com

56

